A

ALLIANCE DEFENDING

FREEDOM

September 24, 2019

The Hon. Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543-0001

Re: No. 19-333, Arlene's Flowers, Inc. v. Washington

Dear Mr. Harris:
Pursuant to Supreme Court Rule 37 .2(a), Petitioners Arlene's Flowers, Inc.
and Barronelle Stutzman hereby give blanket consent to the filing of amicus curiae
briefs in support of either or of neither party in the above-referenced case, with
respect to the petition for writ of certiorari filed on September 11, 2019. Thank you
for your assistance.

Sincerely,

Kristen K. Waggoner
Counsel for Petitioners

cc:

Noah G. Purcell, Solicitor General
Counsel for Respondent State of Washington
Michael J. Ewart

Counsel for Respondents Robert Ingersoll and Curt Freed

15100 N 90th Street. Scottsdale, AZ 85260

Phone

480 .4 44 0020

Fax . 480 . 444 0028

ADFlegal .o rg

